                      U.S. Department of Agriculture

                         Office of Inspector General
                                    Northeast Region




             Audit Report

       Food and Nutrition Service
JPMorgan EFS’ Oversight of EBT Operations




                            Report No. 27099-69-Hy
                                   September 2007
                     UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250


September 28, 2007

REPLY TO
ATTN OF:      27099-69-Hy

TO:           Roberto Salazar
              Administrator
              Food and Nutrition Service

ATTN:         Lael Lubing
              Director
              Grants Management Division

FROM:         Robert W. Young /s/
              Assistant Inspector General
                for Audit

SUBJECT:      JPMorgan EFS’ Oversight of Electronic Benefits Transfer Operations


This report presents the results of our audit of the JPMorgan EFS’ Oversight of Electronic
Benefits Transfer Operations. Your response to the official draft, dated September 26, 2007, is
included as exhibit B. Excerpts of your response and the Office of Inspector General’s (OIG)
position are incorporated into the Findings and Recommendations section of the report. Based
on your response, we were able to reach management decision on Recommendation 5. Please
follow your agency’s internal procedures in forwarding final action correspondence to the Office
of the Chief Financial Officer. Management decisions for Recommendations 1, 2, 3, and 4 can
be reached once you have provided us with the additional information outlined in the OIG
Position section after each recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the planned corrective actions and the timeframes for implementation for
Recommendations 1, 2, 3, and 4. Please note that regulation requires management decision to be
reached on all findings and recommendations within 6 months from report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Food and Nutrition Service - JPMorgan EFS’ Oversight of EBT Operations
(Audit Report No. 27099-69-Hy)


Results in Brief                     The Food Stamp Act of 1977, Public Law 88-525, authorized the Food
                                     and Nutrition Service (FNS) to experiment with alternative methods for
                                     the delivery of Food Stamp Program (FSP) benefits using electronic data
                                     processing and computer technology. With this authorization, FNS
                                     allowed State agencies to begin issuing FSP benefits using an Electronic
                                     Benefits Transfer (EBT) system. EBT is an electronic system that allows a
                                     recipient to authorize transfer of their government benefits from a Federal
                                     account to a retailer account to pay for products received. EBT has been
                                     implemented in all States since June 2004.

                                     The Office of Inspector General (OIG) has monitored and audited
                                     implementation of EBT by FNS and States since its inception. The
                                     objectives of our current audit were to assess the operation of EBT system
                                     controls established by EBT processor, JPMorgan Electronic Financial
                                     Services (EFS) and review its compliance with applicable laws and
                                     regulations. 1

                                     We concluded that JPMorgan EFS’ oversight of EBT operations was
                                     generally adequate and overall compliant with laws and regulations;
                                     however, the audit disclosed that the standard JPMorgan EFS system
                                     configuration could create differences between household account
                                     balances on the EBT system and the underlying benefit records for those
                                     accounts due to unapplied benefits 2 and lead to the processing of
                                     excessive refunds and misuse of FSP funds.

                                        •    Federal regulations 3 require that the States reconcile benefits posted
                                             to household accounts on the EBT central computer 4 (JPMorgan
                                             EFS’s Debit File) against benefits in the Issuance Authorization File
                                             (JPMorgan EFS’s Benefit File). In addition, the regulations require
                                             that the States reconcile funds entered into, exiting from, and
                                             remaining in the system each day and maintain audit trails that
                                             document the full cycle of benefit issuance.

                                             Unapplied benefits are created when refunds are posted to a
                                             household’s account on the EBT system but not to the underlying
                                             benefit records in the Benefit File. All retailer-approved refunds are

1
    7 C.F.R. 274.12; 7 C.F.R. 277.18
2
    Transactions that cannot be applied to a specific EBT benefit record.
3
    7C.F.R. 274.12 (k)(1)(i), (v) and (vi)
4
    We will refer to the EBT central computer as the EBT system in the remainder of the report.

USDA/OIG-A/27099-69-Hy                                                                                            Page i
                                        automatically returned to a household’s account on the EBT system
                                        through real time processing. However, the refunds are returned to
                                        the household’s Benefit File using a batch drawdown process run at
                                        various intervals throughout the day. The benefit records in the
                                        Benefit File are periodically purged due to age. According to
                                        JPMorgan EFS, if there is no benefit record against which to apply
                                        the refund, JPMorgan EFS will create an unapplied benefit record in
                                        the Benefit file.

                                        The standard JPMorgan EFS system configuration does not include a
                                        process to track unapplied benefits over time. As a result, State
                                        Agencies may not be able to perform required reconciliations and
                                        validate the fiscal integrity of the EBT system.

                                    •   FNS and the New York State Agency provided OIG with
                                        documentation that 16 FSP recipients completed 737 fraudulent and
                                        287 potentially fraudulent refunds during fiscal years 2005 and
                                        2006 totaling nearly $100,000. The California State Agency
                                        provided OIG with evidence that FSP recipients completed
                                        217 potentially fraudulent refunds during fiscal years 2006 and
                                        2007 for over $23,000. In some instances, the recipients are taking
                                        part in a scheme to obtain cash for refunds posted to their accounts.
                                        In other instances, recipients misrepresent themselves as an EBT
                                        vendor, FNS official, or third-party processor representative in order
                                        to convince unsuspecting retailers to process refund transactions.
                                        Although there is no loss of Federal funds, the unsuspecting retailers
                                        are the victims of fraud. In addition, the recipients perpetrating the
                                        fraud are committing intentional program violations as defined by
                                        Federal regulations. 5

                                        The JPMorgan EFS system configuration periodically purges benefit
                                        records in the Benefit File that have been drawn down to $0. In
                                        addition, JPMorgan EFS batch processes transactions to the Benefit
                                        File rather than processing them in real time. This allows refunds,
                                        posted in real time to household accounts on the EBT system, that do
                                        not have an underlying benefit record in the Benefit File. There are
                                        no limits as to the number of refund transactions or maximum total
                                        value of refunds processed for each recipient per month. FNS has not
                                        performed reviews to identify excessive refunds because, according
                                        to FNS officials, the problem was limited to New York City, with
                                        the potential to happen only in other JPMorgan EFS States. Also, the
                                        EBT processor does not provide daily refund reports that would
                                        assist in reviews of refund transactions. As a result, FSP funds were


5
    7 C.F.R. 273.16(c)(1) and (2)

USDA/OIG-A/27099-69-Hy                                                                                     Page ii
                                          received through fraudulent and potentially fraudulent transactions
                                          and may be used for other than their intended purpose.

                                          Federal regulations 6 require EBT systems to have upper limits on
                                          refunds to prevent and control damage to the system accounts.
                                          Additionally, the regulations 7 require that the EBT system provide
                                          reports that enable the State Agency to manage the system.

                                     Because the standard JPMorgan EFS system configuration may create
                                     unapplied benefits and allow excessive refunds, FNS needs to require the
                                     States to work with JPMorgan EFS to develop ways to eliminate or track
                                     unapplied benefits and strengthen controls over refunds. These actions are
                                     critical because 33 States and territories use JPMorgan EFS as their
                                     primary contractor. In addition, JPMorgan EFS issued nearly $19 billion
                                     in FSP benefits in FY 2006.

Recommendations
In Brief                             FNS should require the States to work with JPMorgan EFS to: Establish a
                                     standard process for comparing benefits remaining in the Benefit File with
                                     the balance in the household accounts on the EBT system; lower ceilings
                                     for refunds and establish reasonable limits on the number and total dollar
                                     value of refunds approved for recipients each month; request that benefit
                                     records remain in the Benefit File for a longer period of time before they
                                     are purged; and in future procurement actions, include language in
                                     Request for Proposals that addresses real time processing of refund
                                     transactions to benefit records in the Benefit File and production of daily
                                     and monthly refund reports.

Agency Response
                                     FNS agreed to all five report recommendations. We have incorporated
                                     FNS’ response in the Findings and Recommendations section of this
                                     report, along with the OIG position. FNS’ response is included as
                                     Exhibit B.
OIG Position

                                     Based on FNS’ response, we were able to reach management decision on
                                     Recommendation 5. Management decision on Recommendations 1, 2, 3,
                                     and 4 can be reached once FNS has provided us with the additional
                                     information outlined in the report section, OIG Position.




6
    7 C.F.R. 274.12 (i)(3)(iii)(B)
7
    7 C.F.R. 274.12 (k)(2)

USDA/OIG-A/27099-69-Hy                                                                                      Page iii
Abbreviations Used in This Report

ACS            Affiliated Computer Services
C.F.R.         Code of Federal Regulations
EBT            Electronic Benefits Transfer
EFS            Electronic Financial Services
FNS            Food and Nutrition Service
FSP            Food Stamp Program
FY             Fiscal Year
HQ             Headquarters
ID             Identification
OIG            Office of Inspector General
POS            Point of Sale
P.L.           Public Law
PwC            PricewaterhouseCoopers
RFP            Request for Proposal
SAS            Statements on Auditing Standards
TPP            Third-Party Processor
USDA           U.S. Department of Agriculture




USDA/OIG-A/27099-69-Hy                            Page iv
Table of Contents
Executive Summary .......................................................................................................................... i

Abbreviations Used in This Report ............................................................................................... iv

Background and Objectives ............................................................................................................ 1

Findings and Recommendations..................................................................................................... 3

Section 1. JPMorgan EFS’ System Configuration....................................................................... 3

        Finding 1             The Standard JPMorgan System Configuration Can Create Unapplied
                              Benefits That Cause Reconciliation Issues and Potential Misuse of FSP
                              Funds ................................................................................................................ 4
                                   Recommendation 1 ................................................................................... 6
                                   Recommendation 2 ................................................................................... 7
        Finding 2             State Refund Controls Need Strengthening ..................................................... 8
                                   Recommendation 3 ................................................................................... 9
                                   Recommendation 4 ................................................................................. 10
                                   Recommendation 5 ................................................................................. 11

Scope and Methodology................................................................................................................. 12

Exhibit A – JPMorgan EFS States and Applicable Refund Amounts ...................................... 14
Exhibit B – Agency Response....................................................................................................... 15




USDA/OIG-A/27099-69-Hy                                                                                                                            Page v
Background and Objectives

Background                        The U.S. Department of Agriculture’s (USDA) Food and Nutrition Service
                                  (FNS) administers the Food Stamp Program (FSP) which assists
                                  low-income households by increasing their ability to purchase food. Once
                                  a month, each participating household receives a benefit allotment
                                  determined by the number of individuals in the family, household income,
                                  and other related factors. Recipients can use the benefits to pay for food
                                  items at participating food retailers.

                                  The Food Stamp Act of 1977, Public Law (P.L.) 88-525, authorized FNS
                                  to experiment with alternative methods for the delivery of FSP benefits
                                  using electronic data processing and computer technology. The Personal
                                  Responsibility and Work Opportunity Reconciliation Act of
                                  1996, P.L. 104-193, required all States 8 to implement EBT systems before
                                  October 1, 2002, unless the requirement was waived. Additionally, the
                                  EBT Interoperability and Portability Act of 2000 mandated cost-effective
                                  portability of food stamp benefits across State borders by October 1, 2002.

                                  The FSP is administered by FNS through a Federal-State partnership. The
                                  Federal Government pays the full cost of recipient benefits and shares the
                                  cost to administer the FSP with the States. Congress funds the FSP
                                  through direct appropriation. In Fiscal Year (FY) 2006, over $30 billion in
                                  FSP benefits were issued through EBT systems.

                                  Before EBT, the basic method of FSP benefit delivery was the food stamp
                                  coupon. EBT was developed to replace paper coupons with an electronic
                                  system. Using plastic cards, much like a debit card along with a Personal
                                  Identification Number, recipients gain access to benefits through point of
                                  sale (POS) terminals located at approved food retailers.

                                  FNS has established approval rules for the delivery of FSP benefits using
                                  EBT systems in Title 7 Code of Federal Regulations
                                  (C.F.R.) § 274.12, dated January 1, 2006, and for approving automated
                                  data processing systems in Title 7 C.F.R. § 277.18, dated
                                  January 1, 2006. The FSP regulations specify functional areas to be
                                  addressed by the State agency but do not establish a standardized system
                                  of internal controls. FNS' policy is to allow the States the flexibility to
                                  establish control systems that meet the needs of the individual States.



  8
      For purposes in this report, “States” will refer to all 50 U.S. States, Guam, Puerto Rico, Virgin Islands, and Washington D.C.

  USDA/OIG-A/27099-69-Hy                                                                                                               Page 1
                  Generally, States award contracts to private sector companies to develop
                  and operate their EBT systems. These companies are usually financial
                  institutions or other organizations that already handle debit and credit card
                  systems or electronic funds transfer activities. However, the States remain
                  financially liable to the Federal Government for actions of their EBT
                  processors. As of September 2006, there were four prime EBT contractors
                  plus three States who were acting as their own prime contractor. A prime
                  contractor is the contractor selected by the State to oversee all EBT
                  functions; however, the EBT processing function may be performed by
                  another entity. Thirty-three States and territories have selected the same
                  prime contractor, JPMorgan Electronic Financial Services (EFS). Nearly
                  $19 billion of the approximately $30 billion in FSP benefits for
                  FY 2006 were issued through State EBT systems for which JPMorgan
                  EFS was the prime contractor.

                  JPMorgan EFS provides electronic benefit transfer services to Federal and
                  State governments as required by the 1996 Personal Responsibility and
                  Work Opportunity Reconciliation Act. A government agency (i.e., benefit
                  issuer) distributes needs-tested benefits by establishing accounts that may
                  be accessed by recipients electronically through an automatic teller
                  machine or a retail POS terminal.

Objectives        The objectives of the audit were to (1) determine and assess the operation
                  of EBT system control established by JPMorgan EFS and (2) review
                  JPMorgan EFS compliance with applicable laws and regulations.

                  To accomplish these objectives, we reviewed two prior JPMorgan EFS
                  Statement on Auditing Standards (SAS) No. 70 Reports titled “Report on
                  Controls over the Processing of Transactions” for periods July 1, 2004 to
                  June 30, 2005 and July 1, 2005 to June 30, 2006, respectively, performed
                  by PricewaterhouseCoopers (PwC) Limited Liability Partnership. OIG
                  reviewed PwC workpapers for the 2006 SAS 70 Report. We interviewed
                  JPMorgan EFS, FNS, and various State Agency officials to obtain
                  supplementary information and documentation as needed.




   USDA/OIG-A/27099-69-Hy                                                                         Page 2
Findings and Recommendations
Section 1. JPMorgan EFS’ System Configuration


                                 JPMorgan EFS’ oversight of EBT operations was generally adequate and
                                 complied with applicable laws and regulations. JPMorgan EFS
                                 strategically instituted a segregation of functions, which is inherent to their
                                 internal controls. The JPMorgan EFS Command Center Services Group
                                 performed monitoring tasks to ensure positive acknowledgment between
                                 the State and the data center that all transmitted data was received and the
                                 transaction totals matched before updating the EBT system database. Also,
                                 JPMorgan EFS protected telecommunications with encryption software on
                                 both the JPMorgan EFS server and the server of the States (benefit
                                 issuers).

                                 JPMorgan EFS conducts day-to-day EBT activities at the operation center
                                 in Tampa, Florida. EBT processing was performed at the data centers in
                                 Weehawken, New Jersey and Silver Spring, Maryland at the time of the
                                 audit, but have since moved to Brandywine, Delaware and Elk Grove,
                                 Illinois. JPMorgan EFS controlled access to each facility with a
                                 multi-level computerized card access system. Visitors must register with
                                 security officers, wear a visitor’s badge, and be escorted by JPMorgan
                                 personnel at all times. Additionally, JPMorgan EFS limited access to the
                                 EBT system to authorized users and issued IDs and passwords. As a part
                                 of environmental controls, JPMorgan EFS equipped the data centers with
                                 smoke detectors and sprinklers, as well as monitoring equipment to
                                 control the temperature and humidity.

                                 In addition, JPMorgan EFS used hiring practices designed to ensure that
                                 new employees were qualified for their job responsibilities. JPMorgan
                                 EFS checked references and performed background and security checks,
                                 including fingerprinting, criminal record checking, and drug testing.

                                 During the audit entrance conference, FNS requested that OIG review
                                 controls over refunds. In addition, FNS asked OIG to evaluate unapplied
                                 benefits 9 and the New Mexico State agency’s method of expungement. 10

                                 Our work on unapplied benefits and refunds disclosed that the standard
                                 JPMorgan EFS system configuration could result in the creation of
                                 unapplied benefits and allow for the processing of excessive refunds.
                                 Excessive refunds may contribute to the level of unapplied benefits. In

9
     Unapplied benefits are transactions that cannot be applied to a specific EBT benefit record.
10
     Expungement is the removal of a benefit from a recipients account due to a preset duration of inactivity in the account.

USDA/OIG-A/27099-69-Hy                                                                                                          Page 3
                               addition, the unapplied benefits may prevent State Agencies from
                               validating the fiscal integrity of the EBT system.

                               Regarding FNS’ request to review expungements, OIG interviewed
                               pertinent New Mexico officials, obtained expungement documentation,
                               and determined that the EBT system is now capable of performing grant 11
                               level expungements of aged benefits.


Finding 1                      The Standard JPMorgan System Configuration Can Create
                               Unapplied Benefits That Cause Reconciliation Issues and
                               Potential Misuse of FSP Funds

                               The standard JPMorgan EFS system configuration can create differences
                               between household account balances on the EBT system and the
                               underlying benefit records for those accounts. Unapplied benefits are
                               created when refunds are posted to household accounts on the EBT system
                               but not to underlying benefit records that were previously purged from the
                               Benefit File. 12 The standard system configuration does not include a
                               process to track the difference between total benefits remaining in the
                               Benefit File with the balance in the household accounts on the EBT
                               system. As a result, State agencies may not be able to perform required
                               reconciliations and validate the fiscal integrity of the EBT system. This
                               configuration can also lead to the misuse of FSP benefits. (See Finding 2)

                               Federal regulations 13 require that the States reconcile benefits posted to
                               household accounts on the EBT central computer 14 (JPMorgan EFS’s
                               Debit File) against benefits in the Issuance Authorization File (JPMorgan
                               EFS’s Benefit File). In addition, the regulations require that the States
                               reconcile funds entered into, exiting from, and remaining in the system
                               each day and maintain audit trails that document the full cycle of benefit
                               issuance.

                               On a daily basis, States send Issuance Authorization Files to JPMorgan
                               EFS. The issuance authorizations are verified for accuracy then posted to
                               individual benefit records in the Benefit File and deposited in household
                               accounts in the Debit File on the EBT system. The Benefit File acts as the
                               Issuance Authorization File for reconciliation purposes. Over time, in the
                               standard JPMorgan EFS system, the overall household account totals in
                               the Debit File on the EBT system do not always match the sum of the
                               individual benefit records in the Benefit File. This difference is due to

11
   Grant level expungement is the removal of only the oldest benefit in a recipients account after a preset duration; as opposed to account level
   expungement which removes all benefits in a recipients account once any benefit reaches the preset aged limit.
12
   The amount of time to purge benefit records drawn to $0 varies from State to State (30, 60, 90 days, etc.)
13
   7 C.F.R. 274.12 (k)(1)(i), 7 C.F.R. 274.12 (k)(1)(v) and 7 C.F.R. 274.12 (k)(1)(vi)
14
   We will refer to the EBT central computer as the EBT system in the remainder of the report.

USDA/OIG-A/27099-69-Hy                                                                                                                              Page 4
                                 unapplied benefits that may affect the State’s ability to validate the fiscal
                                 integrity of the EBT system.

                                 Unapplied benefits are created in the following way. JPMorgan EFS
                                 purges individual benefit records in the Benefit File that have been drawn
                                 down to $0 after a certain amount of time has elapsed. The amount of
                                 time varies from State to State (30, 60, 90 days etc.). If a retailer
                                 processes a refund for a recipient, the full value of the refund is
                                 automatically credited to the household account in the Debit File on the
                                 EBT system in real time. However, JPMorgan EFS updates the benefit
                                 records in the Benefit File using a batch “drawdown” 15 process run at
                                 various intervals throughout the day. During the drawdown process,
                                 JPMorgan EFS returns the refund amount to the most recently opened
                                 benefit record in the Benefit File up to the original amount of that benefit.
                                 If the most recently opened benefit record is returned back to its original
                                 value and there still are additional refund monies available to be posted,
                                 JPMorgan EFS will open the next oldest benefit record and apply the
                                 remaining refund up to the original amount of that benefit. If there are
                                 additional refund monies available to be posted but no more benefit
                                 records available, then JPMorgan EFS will apply the entire remaining
                                 refund amount to the oldest benefit record. If there is no benefit record at
                                 all against which to apply the refund, JPMorgan EFS will create an
                                 unapplied benefit record in the Benefit file. In the standard JPMorgan
                                 EFS configuration, this occurs because the household account on the EBT
                                 system does not have a corresponding benefit record against which to
                                 apply the refund amount.

                                 Unapplied benefits only show up in the Benefit File on the day they occur.
                                 There is no record to track them over time. Therefore, if a State does not
                                 track these on a daily basis or makes a mistake in tracking these benefits, a
                                 particular household's account balance in the Debit File may not equal the
                                 benefits left to that household in the Benefit File.

                                 JPMorgan EFS has worked with several States to help them understand
                                 and deal with unapplied benefits. In addition, JPMorgan EFS officials
                                 participated in a panel discussion to address State’s concerns about the
                                 seriousness of unapplied benefits in a presentation to State EBT Directors
                                 in April 2007. JPMorgan EFS officials offered to work with States who
                                 feel that unapplied benefits have not been satisfactorily explained. In
                                 addition, based on requests from Florida and New York, JPMorgan EFS
                                 introduced a batch process called grant re-synchronization that compares
                                 the total benefits remaining in the Benefit File to the household account
                                 balances in the Debit File. If the household account value exceeds the
                                 Benefit File total, the system automatically creates a holding record for the

15
     A process where FSP purchases/redemptions are deducted from, or in the case of a refund, added to the individual benefit records.

USDA/OIG-A/27099-69-Hy                                                                                                                   Page 5
               unapplied benefits. With these unapplied benefits included in the Benefit
               File, States can calculate the ending benefit balance, perform the required
               reconciliations and validate the fiscal integrity of the EBT system.

               During fieldwork, FNS and JPMorgan EFS staff explained that an
               accurate assessment of the extent of unapplied benefits, from the inception
               of the EBT system, could take months for each State. Consequently, we
               decided to determine the extent of daily unapplied benefit activity for a
               sample of days during our audit fieldwork. We selected eight days
               between November 2006 and February 2007 to identify the extent of daily
               activity for unapplied benefits. During the period of review seven States
               (Arizona, California, Florida, Georgia, New York, Pennsylvania and
               Washington) reported various levels of daily unapplied benefit activity
               from a low of $0.41 for Florida on January 24, 2007, to a high of
               $147.08 for California on February 2, 2007. Although the daily activity
               was low, the cumulative effect could become significant over time, and
               without tracking, could prevent accurate reconciliation and the validation
               of the fiscal integrity of the EBT system. In fact, 3 out of 33 JPMorgan
               EFS’ States cited unapplied benefits as a concern during the audit.

               States experiencing continuing problems with unapplied benefits should
               work with JPMorgan EFS to implement a solution similar to Florida and
               New York. In addition, States should work with EBT processors to
               explore the feasibility of real time processing of transactions to benefit
               records in the Benefit File in future EBT systems. States can also request
               that benefits records remain in the Benefit File for a longer period of time
               before purging the used benefits. These actions are critical because
               33 States and territories use JPMorgan EFS as their primary contractor. In
               addition, JPMorgan EFS issued nearly $19 billion in FSP benefits in
               FY 2006.

Recommendation 1

               Require States that are experiencing problems with unapplied benefits to
               request that JPMorgan EFS incorporate the grant re-synchronization
               process into their regular drawdown process on at least a daily basis.

               Agency Response

               The Food and Nutrition Service (FNS) accepts the recommendation and
               will issue a directive to all States currently processed by JPMorgan to take
               the recommended action. As noted in Finding 1, JPMorgan has already
               worked with several States to implement the new process. We will request
               each State to verify whether JPMorgan has, in fact, implemented grant re-
               synchronization for their system, and that it is incorporated into all
               drawdown processing (which is performed at least daily for smaller States,
USDA/OIG-A/27099-69-Hy                                                                        Page 6
               and several times a day for larger ones). FNS will take action to ensure
               that States that have not yet implemented grant re-synchronization do so in
               a timely manner. Additionally, FNS will monitor drawdown reports
               produced by JPMorgan for each State to validate that beginning and
               ending balances for unapplied benefits are calculated and displayed.

               OIG Position

               We do not accept FNS’ management decision. While OIG concurs with
               FNS proposed course of action, in order to accept management decision,
               FNS needs to provide OIG with proposed completion dates for
               implementing each proposed corrective action in the response.

Recommendation 2

               Require States with potential future contracts with EBT processors to
               request real time processing of refund transactions to benefit records in the
               Benefit file. In the interim, States can request that benefits records remain
               in the Benefit File for a longer period of time before they are purged.

               Agency Response

               We agree with the finding that led to this recommendation and have taken
               steps toward implemention. FNS reviews and approves all Requests for
               Proposal (RFP) for State EBT systems prior to release. We also require all
               EBT contracts to have FNS approval. FNS is currently updating the RFP
               Guidance document that was developed when States were first bringing up
               EBT. The updated RFP Guidance document, which FNS hopes will be
               issued early next spring, if not sooner, will address the need for real time
               processing of refunds to benefit records. FNS will also issue a notice to
               current JPMorgan States recommending that benefit records be maintained
               on the EBT system for longer periods of time.

               OIG Position

               We do not accept FNS’ management decision. While OIG concurs with
               FNS proposed course of action, in order to accept management decision,
               FNS needs to provide OIG with a more specific proposed completion date
               for issuing the updated RFP Guidance and a proposed completion date for
               issuing the notice to current JPMorgan States recommending that benefit
               records be maintained on the EBT system for longer periods of time.




USDA/OIG-A/27099-69-Hy                                                                         Page 7
Finding 2                       State Refund Controls Need Strengthening

                                The audit disclosed that excessive refunds were processed in New York
                                and California. FNS and the New York State Agency provided OIG with
                                documentation that 16 FSP recipients completed 737 fraudulent and
                                287 potentially fraudulent refunds during fiscal years 2005 and 2006 for
                                nearly $100,000. The California State Agency provided OIG with
                                evidence that FSP recipients completed 217 potentially fraudulent refunds
                                during fiscal years 2006 and 2007 for over $23,000. In some instances, the
                                recipients are taking part in a scheme to obtain cash refunds posted to their
                                accounts. In other instances, recipients misrepresent themselves as an EBT
                                vendor, FNS official, or third-party processor representative in order to
                                convince unsuspecting retailers to process refund transactions. Although
                                there is no loss of Federal funds, the unsuspecting retailers are the victims
                                of fraud. In addition, the recipients perpetrating the fraud are committing
                                intentional program violations as defined by Federal regulations. 16

                                Although most States, including New York, have limits as to the
                                maximum dollar amount of refunds, there are no limits as to the number of
                                refund transactions or maximum total value of refunds processed for each
                                recipient per month. FNS has not performed reviews to identify excessive
                                refunds because, according to FNS officials, the problem was limited to
                                New York City, with the potential to happen only in other JPMorgan EFS
                                States. Additionally, the EBT processor does not provide daily refund
                                reports that would assist in reviews of refund transactions. As a result,
                                FSP funds were received through potentially fraudulent transactions and
                                may be used for other than their intended purpose.

                                Federal regulations 17 require EBT systems to have upper limits on refunds
                                to prevent and control damage to the system accounts. Additionally, the
                                regulations 18 require that the EBT system provide reports that enable the
                                State Agency to manage the system.

                                Due to the extent of the problem, we contacted the New York State
                                Agency to determine whether corrective actions had been taken against
                                the most serious program violators. The State Agency informed OIG that
                                they referred the most serious violator who obtained more than $44,000 in
                                fraudulent refunds to the District Attorney for criminal prosecution. They
                                notified FNS about two others who obtained more than $12,000 in
                                fraudulent refunds and referred them to New York’s Bureau of Fraud and
                                Investigations for intentional program violation claims.

16
   7C.F.R. 273.16(c)(1) and (2)
17
   7 C.F.R. 274.12 (i)(3)(iii)(B)
18
   7 C.F.R. 274.12 (k)(2)

USDA/OIG-A/27099-69-Hy                                                                                          Page 8
               JPMorgan EFS officials explained that they set the refund ceiling as
               prescribed by the States. We contacted the 33 States for which JPMorgan
               EFS serves as the EBT processor to obtain refund limits by State. We were
               able to determine that the refund upper limitations vary from State to
               State. In States where a prescribed limit is set, amounts range from $50 to
               $250. Ten States allow refunds up to the full amount of the purchase in
               question, while three States do not have a set limit. In one State, the limit
               is set by the retailers (See Exhibit A). New York reduced its refund limit
               from $250 to $75 as a result of the excessive refunds processed.

               In May 2007, California notified us that retailers in the State may have
               also been the victim of fraud. From January to April 2007, California FSP
               recipients completed 78 potentially fraudulent refunds for over
               $8,000. Likewise, in 2006, recipients completed 139 potentially fraudulent
               refunds for over $15,000. California is working with OIG’s Office of
               Investigations to address the problem.

               To strengthen controls over refunds processed through State EBT systems,
               FNS should require States that update benefit records via batch processing
               and have no refund ceiling or an unreasonably high ceiling, to lower their
               thresholds for refunds and to limit the maximum number of refunds per
               client per month and the maximum total value of refunds allowed per
               month. However, these limits need to be reasonable enough to handle
               legitimate client’s needs. FNS should also require the States to request that
               the EBT contractor provide daily and monthly refund reports in their next
               Request for Proposal (RFP). Finally, FNS should develop an action plan
               with specific milestone dates to identify States that process potentially
               fraudulent refunds and initiate corrective actions as appropriate.

               In Finding 1 we recommended that FNS require States with potential
               future contracts with EBT processors to request real time processing of
               refund transactions to benefit records in the Benefit File. Real time
               processing of transactions to the Benefit File would eliminate the ability of
               FSP recipients to receive refunds in excess of their benefits because
               system updates become automatic instead of daily/nightly.

Recommendation 3

               Require States that update benefit records via batch processing and have
               no refund ceiling or an unreasonably high ceiling, to lower the refund
               ceiling and limit the number and total dollar value of refunds that will be
               approved for recipients each month. However, these limits need to be
               reasonable enough to handle legitimate client’s needs.

               Agency Response

USDA/OIG-A/27099-69-Hy                                                                         Page 9
               We accept the finding that led to this recommendation and will work with
               the States listed in Exhibit A as having no set ceiling or an unreasonably
               high ceiling for refunds. Following some data analysis, we will also
               request limits on the number and dollar value of refunds that would be
               approved for recipients each month. FNS began maintaining refund
               transaction data beginning with system changes implemented in
               June 2007 and will analyze this data to help determine appropriate refund
               limits that will accommodate legitimate client needs. Once reasonable
               limit options are established, FNS will work with the appropriate States.


               OIG Position

               We do not accept FNS’ management decision. While OIG concurs with
               FNS proposed course of action, in order to accept management decision,
               FNS needs to provide OIG with proposed completion dates for completing
               the data analysis on refunds, determining appropriate refund limits, and
               requesting limits to be set by the States.

Recommendation 4

               Require States to include language in their next RFP that will lead to the
               design of an EBT system that provides daily and monthly refund reports
               that address the problem of excessive refunds. Develop and implement
               controls to ensure that each State submits an RFP with the required
               language.

               Agency Response

               We agree with the finding that led to this recommendation and will
               address any appropriate requirement in our revised RFP Guidance noted
               above. FNS will also develop recommended language on the subject to
               share with States as we are doing with respect to recommendation
               2. However, until we conduct further analysis on what data we have
               available and discuss the issue further with relevant States, we are unsure
               as to whether a new set of State EBT reports is necessary or warranted,
               given that FNS already collects all transaction data for ALERT and is
               analyzing that data. If we conclude that additional State reports are
               warranted, we will address this with the relevant States, as appropriate and
               incorporate it into the RFP Guidance.

               OIG Position

               We do not accept FNS’ management decision. To accept management
               decision, FNS needs to identify what actions it will initiate with ALERT
               to analyze refund transactions if it is determined that a new set of EBT
USDA/OIG-A/27099-69-Hy                                                                        Page 10
               refund reports is unnecessary. Currently, ALERT does not analyze refund
               transactions. In addition, FNS needs to provide OIG with proposed
               completion dates for implementing proposed corrective actions.

Recommendation 5

               Develop an action plan with specific milestone dates to identify States that
               process potentially fraudulent refunds and initiate corrective actions as
               appropriate.

               Agency Response

               We accept this finding and will develop an Action Plan. The FNS action
               plan will focus on researching and analyzing six months worth of refund
               transaction activity that will be available starting in November 2007. We
               expect the research will identify patterns and trends that can be used to
               determine any additional reports that may be needed to flag suspect
               transactions as well as the need for supplemental guidance to retailers who
               are vulnerable to refund scams. FNS plans to complete its initial research
               by February 2008.

               OIG Position

               OIG accepts FNS’ management decision.




USDA/OIG-A/27099-69-Hy                                                                        Page 11
Scope and Methodology
                               To accomplish our objectives, we performed work at the FNS National
                               Office in Alexandria, Virginia and the offices of JPMorgan EFS and PwC
                               in Tampa, Florida.

                               Per Federal Regulations, 19 JPMorgan EFS is annually reviewed by
                               independent auditors, who perform their reviews in accordance with
                               American Institute of Certified Public Accountants Statement on Auditing
                               Standards (SAS) No. 70, Service Organizations. PwC is the independent
                               auditing firm that performs the annual SAS 70 audit of JPMorgan EFS.

                               In order to minimize the duplication of audit efforts and in accordance
                               with Federal regulations, 20 OIG reviewed PwC’s independence
                               confirmations and assessed the professional qualifications of PwC by
                               reviewing their latest external peer review. In order to place reliance on
                               PwC’s SAS 70 Report on Controls over the Processing of Transactions for
                               the period of July 1, 2005 to June 30, 2006, we reviewed PwC’s audit
                               working papers. OIG determined that the working papers provided the
                               level of assurance needed to conclude that audit documentation was
                               complete, accurate, met our requirements and Generally Accepted
                               Government Auditing Standards.

                               Because of our ability to rely on the work of PwC, OIG was able to
                               minimize redundant audit work in the areas of (1) Organizational and
                               Operational Controls, (2) Data and Procedure Controls, (3) Processing
                               Controls, (4) Input and Output Controls, (5) Identification and
                               Authentication Controls, (6) Telecommunication Security, and
                               (7) Physical and Environmental Security.

                               OIG performed additional audit tests beyond the scope and extent of
                               testing in the SAS 70 audit as follows:

                                    •    Determined system programming for application of current
                                         month’s redemption to benefits authorized in previous months.
                                    •    Documented the technical feasibility of POS terminals being
                                         moved from retailer premises and used in unauthorized locations.
                                    •    Determined if any approved waivers to FNS EBT regulations
                                         affected the overall security at JPMorgan EFS.
                                    •    Identified, obtained, reviewed, and evaluated certification
                                         standards.

19
     7 CFR 274.12(k)(5)(i)
20
     7 CFR 274.12(k)(vi) – Examinations and Audits

USDA/OIG-A/27099-69-Hy                                                                                      Page 12
                  •   Assessed EBT processor’s compliance with transaction processing
                      time requirements.
                  •   Obtained August 2006 FSP authorization data for Colorado for
                      each day and reconciled the JPMorgan EFS receipt of the FSP
                      authorizations to the data provided by the State.
                  •   Reviewed procedures to handle manual transaction data.
                  •   Reviewed and analyzed three months of FSP data including the
                      total number and amounts of FSP redemptions and manual FSP
                      redemptions.
                  •   Reviewed a random sample of 30 manual vouchers from a universe
                      of 46,348 manual voucher transactions for the period June through
                      August 2006 for Colorado, New Mexico, New York and
                      Pennsylvania to determine if manual transactions were processed
                      correctly.
                  •   Reviewed roles and responsibilities for telecommunications
                      security.
                  •   Identified the role of Third Party Processors (TPP) in JPMorgan
                      EFS’ processing activities and reviewed procedures for TPP
                      certification by JPMorgan EFS.
                  •   Per FNS Headquarters (HQ) request, interviewed pertinent
                      officials to determine whether the New Mexico EBT system
                      implemented grant level expungement of aged benefits.
                  •   Per FNS HQ request, interviewed pertinent staff and officials
                      within FNS, the States, and JPMorgan EFS, and reviewed data
                      related to unapplied benefits and refunds in JPMorgan EFS States.

               FNS and JPMorgan EFS staff explained that an accurate assessment of the
               extent of unapplied benefits, from the inception of the EBT System, could
               take months for each State. Consequently, we decided to determine the
               extent of daily unapplied benefit activity for a sample of days during our
               audit fieldwork. We judgmentally selected eight days between
               November 2006 and February 2007 to identify the extent of daily activity
               for unapplied benefits. JPMorgan EFS furnished the information via
               Non-Applied Transaction Reports, listing the data for all 33 JPMorgan
               EFS’ States, for each of the selected days.

               Fieldwork was conducted from August 2006 through May 2007. The audit
               was performed in accordance with Generally Accepted Government
               Auditing Standards.




USDA/OIG-A/27099-69-Hy                                                                      Page 13
Exhibit A – JPMorgan EFS States and Applicable Refund
                     Amounts as Provided by the States
                                                                      Exhibit A – Page 1 of 1



             State                     Allowable Refund Amount
      Alaska                           *Up to full purchase amount
      Arizona                                   No limit set
      California                       *Up to full purchase amount
      Colorado                         *Up to full purchase amount
      Connecticut                                   $250
      Florida                                       $250
      Georgia                          *Up to full purchase amount
      Guam                             *Up to full purchase amount
      Hawaii                                        $250
      Idaho                            *Up to full purchase amount
      Indiana                                       $250
      Louisiana                                     $250
      Kentucky                         *Up to full purchase amount
      Maryland                            Limit is set by retailers
      Michigan                                      $200
      Nebraska                                      $250
      Nevada                                        $250
      New Hampshire                             No limit set
      New Mexico                                    $250
      New York                                      $75
      North Dakota                                  $250
      Oklahoma                                      $50
      Pennsylvania                              No limit set
      South Carolina                                $250
      South Dakota                                  $250
      Tennessee                        *Up to full purchase amount
      Virginia                         *Up to full purchase amount
      Virgin Islands                   *Up to the purchase amount
      Washington State                              $250
      Washington DC                                 $250
      West Virginia                                 $250
      Wisconsin                                 No limit set
      Wyoming                                       $75

* As documented on the store receipt




USDA/OIG-A/27099-69-Hy                                                                          Page 14
Exhibit B – Agency Response
                              Exhibit B – Page 1 of 3




USDA/OIG-A/27099-69-Hy                                  Page 15
Exhibit B –       Agency Response

                                    Exhibit B – Page 2 of 3




USDA/OIG-A/27099-69-Hy                                        Page 16
Exhibit B –       Agency Response

                                    Exhibit B – Page 3 of 3




USDA/OIG-A/27099-69-Hy                                        Page 17
